                       Peace Corps
                       Office of Inspector General




PC/Peru Staff in Traditional Peruvian Clothing                  MountainVillage




                                                 Flag of Peru




                 Final Program Evaluation Report:
                         Peace Corps/Peru
                                                                       March 2012
                           EXECUTIVE SUMMARY
Over 3,300 Peace Corps Volunteers have served the people of Peru since the program
was first launched in 1962. The program was closed in 1975 due to political and
economic instability but re-opened in 2002. There are currently five project sectors in
Peru: (1) community health and HIV/AIDS, (2) environmental management, (3) small
business development, (4) water and sanitation, and (5) youth development. At the onset
of this evaluation, 235 Volunteers were serving in Peru and an additional 64 trainees
were participating in pre-service training (PST).

PC/Peru (hereafter, ―the post‖) experienced considerable growth in Volunteer numbers
since re-opening in 2002. This put a strain on staff who had to work increasing hours to
fulfill their job responsibilities. Despite the challenges associated with growth, the
evaluation uncovered a generally well-run post with satisfied Volunteers. The post’s
resignation rate has consistently been lower than global averages.

The post has a unique Volunteer support structure that appeared to contribute to its strong
Volunteer support. The regional coordinators (RCs) located throughout the country
carried out a wide range of support functions and were able to provide on-the-ground
support to Volunteers more quickly than staff in Lima. The post also benefited from 15
third-year Peace Corps volunteer coordinators (PCVCs) and volunteer leaders (PCVLs).
Volunteers appreciated the support provided by the RCs, PCVCs, and PCVLs, and the
post benefits from their work. Volunteers also spoke very highly of the Peace Corps
medical officers (PCMOs), and the evaluation identified several notable practices that
enabled the PCMOs to build good, trusting relationships with Volunteers.

The post also had successes in helping Volunteers build positive counterpart relationships
and in using host families to increase community integration and Volunteer safety. The
Office of Inspector General (OIG) believes these program elements have contributed to
the post’s effectiveness and are practices that might benefit other posts.

The evaluation did uncover some areas for improvement. With five projects in a large,
diverse country, the post has a wide variety of programming goals and Volunteer sites to
balance during site development. The post’s site selection criteria were not well-defined,
and some Volunteers were placed in sites where it was difficult for them to achieve their
primary assignment goals. The post’s programming complexity affected its ability to
deliver effective training, and the timing of Volunteer site assignments made it difficult
for Volunteers to receive technical and language training specific to their site.

There were also several safety and security weaknesses that need to be addressed, such as
lack of awareness among Volunteers of their consolidation points, inaccurate and
incomplete site locator forms, lack of Volunteer compliance with the post’s whereabouts
policy, and lack of adherence to the post’s housing criteria. Furthermore, the post does
not sufficiently consider travel-related risks for Volunteers during the site selection
process.


Preliminary Program Evaluation Report: Peace Corps/Peru                                      i
Despite the benefits of the RC and PCVC positions to Volunteers, some improvements
need to be made. RC workloads varied and were not being actively managed, and PCVCs
were not engaged in substantive Volunteer activities.

Our report contains 16 recommendations, which, if implemented, should strengthen
programming operations and correct the deficiencies detailed in the accompanying report.




Preliminary Program Evaluation Report: Peace Corps/Peru                               ii
                                                TABLE OF CONTENTS

EXECUTIVE SUMMARY ........................................................................................................ i

TABLE OF CONTENTS ......................................................................................................... 1

HOST COUNTRY BACKGROUND ......................................................................................... 1

PEACE CORPS PROGRAM BACKGROUND........................................................................... 1

EVALUATION RESULTS ....................................................................................................... 3
           PROGRAMMING ................................................................................................................................. 3

           TRAINING .......................................................................................................................................... 6

           VOLUNTEER SUPPORT ..................................................................................................................... 10

           MANAGEMENT CONTROLS .............................................................................................................. 17

           PRESIDENT’S EMERGENCY PLAN FOR AIDS RELIEF (PEPFAR) ..................................................... 20


OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................................... 21

INTERVIEWS CONDUCTED ................................................................................................ 22

LIST OF RECOMMENDATIONS .......................................................................................... 25

APPENDIX A: LIST OF ACRONYMS ................................................................................... 27

APPENDIX B: AGENCY’S RESPONSE ................................................................................. 28

APPENDIX C: OIG COMMENTS ....................................................................................... 38

APPENDIX D: OIG MEMO – ACCESSIBILITY OF VOLUNTEER SITES IN PERU................ 41

APPENDIX E: AGENCY’S RESPONSE TO OIG MEMO – ACCESSIBILITY OF VOLUNTEER
SITES IN PERU ................................................................................................................... 43

APPENDIX F: PROGRAM EVALUATION COMPLETION AND OIG CONTACT .................. 46
                        HOST COUNTRY BACKGROUND
Peru is located in western South America and borders Ecuador, Colombia, Brazil,
Bolivia, Chile, and the Pacific Ocean. Ancient Peru was the seat of several prominent
Andean civilizations, most notably that of the Incas. The Incan empire was conquered by
Spain in 1533, and the area remained under Spanish control until Peru declared its
independence in 1821. The military has been prominent in Peruvian history with coups
repeatedly interrupting civilian constitutional government. The most recent period of
military rule was in 1968-1980. Peru returned to democratic leadership in 1980.

Peru has a population of about 28 million people, 70 percent of whom live in urban or
semi-urban areas. Income growth has not been spread evenly among the population;
wealth and economic activity are concentrated in Lima and other major cities, with many
rural areas suffering extreme poverty. The country has two official languages, Spanish
and Quechua.

Peru is a large and diverse country that has numerous ecosystems and climate zones,
including the coastal desert, the Andean mountains and valleys, and the Amazonian
tropical forests. The country has suffered through historical cycles of flooding and
drought, and is subject to tremors and earthquakes.

Peru is listed as ―high human development‖ and ranks 63 out of 169 countries in the 2010
―United Nations Human Development Report."1 The country's estimated HIV/AIDS
prevalence rate in 2009 was 0.4 percent. The Peruvian economy has experienced growth
in the past decade and the national poverty rate has been in decline. However, poor
infrastructure and other factors have hindered economic growth in Peru's non-coastal
areas, and underemployment remains high. The country has abundant mineral resources
and rich fishing grounds. Peru is also one of the world’s largest coca leaf producers. Peru
is a major transit point of cocaine, and the U.S. and Peruvian governments are working
together to limit the cultivation and trafficking of illegal narcotics.


                PEACE CORPS PROGRAM BACKGROUND
The Peace Corps first opened the program in Peru in 1962. More than 2,600 Volunteers
served until the post was closed in 1975 due to political and economic instability. Over
750 Volunteers have served in the country since the post was re-opened in 2002. The post
has experienced steady growth in recent years; from 2008-2012, the number of
Volunteers grew by 79 percent, increasing from 131 to 235. 2

1
  ―The Human Development Report‖ publishes an annual Human Development Index (HDI). The HDI
provides a composite measure of three basic dimensions of human development: health, education and
income. Countries receive a ranking that ranges from ―very high human development‖ to ―low human
development‖ based on related data.
2
  The Volunteer population fluctuates throughout the year as trainees arrive and other Volunteers complete
their service. To more accurately compare Volunteer/trainee numbers across years, the agency often uses


Preliminary Program Evaluation Report: Peace Corps/Peru                                                  1
Volunteers in Peru work in the following five program areas:

       Community Health and HIV/AIDS
    This project (hereafter ―health‖) addresses the multiple health needs of some of the
    country’s poorest communities, particularly in rural areas. Volunteers work with local
    health posts, nongovernmental organizations (NGOs), local educational institutions,
    and various community groups to strengthen family health, especially nutrition and
    hygiene practices. Particular emphasis is placed on the health of women and children,
    with the goal of reducing infant and maternal mortality, as well as HIV/AIDS
    education and prevention.

        Environmental Management
    Volunteers help to build sustained environmental awareness and practices in rural and
    small urban communities. In cooperation with the public sector and NGOs,
    Volunteers give classroom sessions; form environmental youth clubs; encourage
    community members to engage in environmentally sound income-generating
    activities; train residents in proper forestry and water use techniques; work with
    authorities on appropriate trash disposal activities; and promote ecotourism.

        Small Business Development
    Volunteers address poverty and underemployment by helping farmer associations,
    artisan associations, and other small businesses improve their income and profitability
    through new marketing approaches, and better administrative and organizational
    practices. Volunteers are also engaged in linking these small businesses to world
    markets through information and communication technology.

        Water and Sanitation
    Volunteers assist communities, mostly in arid coastal areas, in the construction and
    maintenance of water systems, and in the construction, proper use, and maintenance
    of latrines. Volunteers also train community members on health and sanitation issues.

        Youth Development
    This project addresses the fundamental challenges of preparing low income
    adolescents to lead productive, fulfilling lives. Volunteers work with government
    agencies, NGOs, schools, health posts, youth centers, churches and other community
    groups to build the confidence and self-esteem of vulnerable teens and youth. They
    work with teen youth groups to provide vocational training, leadership skills and
    other vital life skills. Some Volunteers also focus on working with youth special
    needs.

At the onset of this evaluation there were 235 Volunteers serving in Peru as well as 64
trainees who were participating in PST. The post welcomes two groups of trainees each

Volunteer/trainee years (VT years). VT years take into account both the number of Volunteers and the
length of time each Volunteer served. Since Volunteers may serve less than a full calendar year, counting
VT years is more accurate than counting individual Volunteers.


Preliminary Program Evaluation Report: Peace Corps/Peru                                                     2
year. In August 2011, 51 trainees swore in as Volunteers in small business development
and youth development. On November 25, 62 trainees swore in as Volunteers in the
environmental management, health, and water and sanitation programs. At the time of the
evaluation, the post had one Peace Corps Response (PCR) Volunteer working in the
environmental management program.3 Three additional PCR positions were waiting to be
filled at the time of the evaluation.

The post’s FY 2012 budget was $4.8 million. At the time of the evaluation the post had
45 staff positions, including one short-term staff member. The post also employed 21
temporary training staff to assist with PST.


                               EVALUATION RESULTS
PROGRAMMING

The evaluation assessed to what extent the post has developed and implemented
programs intended to increase the capacity of host country communities to meet their
own technical needs. To determine this, we analyzed the following:

        the coordination between the Peace Corps and the host country in determining
        development priorities and Peace Corps program areas;
        whether post is meeting its project objectives;
        counterpart selection and quality of counterpart relationships with Volunteers;
        site development policies and practices.

In reviewing Volunteers’ familiarity with their project goals and objectives, Volunteer
Assignment Descriptions (VADs), grant activities, and the post’s PCR program, OIG
found no significant areas of concern that would necessitate action by the post. Ninety-
four percent of interviewed Volunteers rated their familiarity with their project goals
favorably and 77 percent of interviewed Volunteers stated that their VAD described their
activities ―moderately well‖ or better.

Over half of the interviewed Volunteers were involved in grant activities supported by
the Peace Corps. The post has an organized process for reviewing and approving grants
that includes participation from administrative and programming staff and PCVCs.
Volunteers did not raise any significant concerns related to grants aside from the timing
of the project design and management workshop, which some Volunteers stated occurred
too late in their service.

The post has a small PCR program that is limited to one Volunteer in the environment
program. The Volunteer was having a positive experience and no concerns were raised
related to the PCR program.

3
  Peace Corps Response provides opportunities for Returned Peace Corps Volunteers to undertake short-
term assignments in various program areas around the world.


Preliminary Program Evaluation Report: Peace Corps/Peru                                                 3
Volunteers are developing productive counterpart relationships.

The Peace Corps Programming and Training Guidance: Project Design and Evaluation
section E.2 states, ―posts have found that Volunteers are usually more productive and
effective when Volunteers are assigned to (or encouraged to seek) more than one project
partner.‖ At the post most Volunteers were given the names of multiple potential
counterparts, typically one lead counterpart and at least two back-up counterparts.
Volunteers also networked in their sites and built additional counterpart relationships.

The multiple counterpart model appears to result in productive relationships between
Volunteers and their counterparts. Ninety-seven percent (35 of 36) of the interviewed
Volunteers had at least one counterpart they met with regularly, and 90 percent (27 of 30)
of the interviewed Volunteers stated that it was beneficial to receive multiple counterpart
contacts.4 By connecting Volunteers to multiple community members, it was easier for
them to find people in their community they could work with, and it provided Volunteers
with the freedom to develop closer relationships with people who were supportive of
their work. It also provided greater continuity and decreased the chance that the
Volunteer’s work would stall if an individual counterpart could no longer continue
working with them.

OIG believes the post’s multiple counterpart model contributes to the post’s effectiveness
and is a practice that should be considered by other posts.

Although Volunteers’ overall site satisfaction is high, some Volunteers are placed in
sites where it is difficult for them to achieve their primary assignment goals.

Although Volunteers in Peru are generally satisfied with their assigned sites, 25 percent
of the interviewed Volunteers raised concerns about their ability to achieve the project
goals due to challenges associated with their site location. Some Volunteers were placed
in sites where community needs did not align well with Peace Corps programming,
making it difficult for them to implement some of their project objectives. For example,
some Volunteers were placed in large, well-developed cities that could not benefit from
programming activities directed towards rural sites, such as improved cook stoves and
latrines. Other Volunteers were placed in communities that were very small and
dependent on subsistence farming activities, making it difficult for Volunteers to find
enough community members willing to participate in activities unrelated to agriculture.
Other Volunteers were placed in sites where the area’s climate and development priorities
did not align with the programming goals, such as planting trees in the desert. These
concerns were raised most often by Volunteers in the health and environment sectors.

The Peace Corps Programming and Training Guidance: Project Design and Evaluation
section E.1.4 advises post staff to use a site selection strategy:



4
  Some of the interviewed Volunteers stated that they were not provided multiple counterpart names and
therefore declined to rate this question.


Preliminary Program Evaluation Report: Peace Corps/Peru                                                  4
       Each Post and APCD/PM should establish and document criteria for selecting
       communities, partner agencies, and housing for Volunteers…In addition to Peace Corps
       post health and safety criteria, project criteria should be established for determining
       which sites to explore and select for Volunteer placement.

The guidance advises staff to take into account numerous factors, including
―demonstrated needs that are consistent with project goals and objectives,‖ an element
that is lacking in some of Peru’s Volunteer sites.

Site selection criteria have not been documented for Peru’s projects and do not appear to
be used during site development. Having documented site selection criteria is essential
because a lot of staff members play a role in site development in Peru, including associate
Peace Corps directors (APCDs), program specialists and assistants, RCs, PCVLs, and
PCVCs. Not all of these staff members have insight into the programming strategy.
Therefore, it is important that the programming staff clearly articulate their strategy and
document critical site selection criteria to assist staff members in identifying and
developing sites that are aligned with the program’s goals.

Inadequate site selection not only negatively impacts Volunteer success in achieving their
project goals, but it also impacts their productivity. Data from the 2011 Annual Volunteer
Survey (AVS) shows that PC/Peru Volunteers spend less time on their primary
assignment than Volunteers in other country programs. In 2011, 58 percent of the
Volunteers in Peru reported spending 20 hours or less on their primary assignment
compared to 46 percent globally. Improving site selection will help Volunteers be more
productive and increase the chance they can succeed in achieving their primary goals.


               We recommend:

                  1. That the programming staff document the post’s
                     programmatic site selection criteria and
                     communicate the criteria to all staff involved in
                     site development.


Project partners requested more communication from staff and increased involvement
in project decisions.

We interviewed eight project partners at the Ministry of Education, Ministry of Foreign
Trade and Tourism, National Parks Service, and the Ministry of Health. Overall, project
partners who were interviewed as part of the evaluation were satisfied with the
Volunteers’ work and believe they are helping address Peru’s development needs.
However, most of them requested more information about the program and asked for
greater involvement in the post’s project decisions. The interviewed representatives had
questions about the process used to select Volunteers and place them in specific sites.
They also had suggestions on ways the ministries and Peace Corps could work together



Preliminary Program Evaluation Report: Peace Corps/Peru                                          5
and think more strategically about Volunteer placements and the support provided to
targeted communities.

The Peace Corps Programming and Training Guidance: Project Design and Evaluation
section B2 instructs posts to include host country partners in multiple phases of
programming, including project design, implementation, and evaluation. The guidance
recommends the use of project advisory committees to engage partners. Although the
post maintains relationships with its project partners, this is done through one-on-one
communications, not structured committees. Furthermore, project partners are not
involved in reviewing and updating the post’s project plans, and the post does not have a
formal way to communicate project results and Volunteer achievements to its major
project partners. Without a formalized, structured way to work with project partners, the
post is not able to take full advantage of the partners’ expertise and ensure their interests,
needs, and goals are accounted for in the Peace Corps’ programming goals.


               We recommend:

                 2. That the director of programming and training
                    develop and implement a plan to improve
                    communication with project partners to gather
                    their input and provide feedback on project
                    results.


TRAINING

Another objective of the post evaluation is to answer the question, ―Does training prepare
Volunteers for Peace Corps service?‖ To answer this question we considered such factors
as:

       training adequacy;
       planning and development of the training life cycle;
       staffing and related budget.

In reviewing the post’s process for planning and developing training and the sufficiency
of the post’s training resources, OIG found no significant areas of concern that would
necessitate action by the post. The training program in Peru is generally effective at
helping Volunteers prepare for service and be productive at their sites. The post includes
an appropriate mix of staff and Volunteers to plan and deliver training. Volunteers rated
the effectiveness of their pre-service Spanish language, cross-cultural, medical, and
safety training highly. Spanish language testing scores showed that ninety-eight percent
of Volunteers achieved the minimal Spanish language requirement by the end of their 10-
week PST.




Preliminary Program Evaluation Report: Peace Corps/Peru                                      6
In terms of its training resources, some post staff reported that the lack of a year-round
language coordinator was an impediment to providing local (Quechua) language training;
otherwise the post appears to have adequate staffing resources to deliver Volunteer
training.

Many Volunteers reported that technical training is not practical or relevant to their
sites.

The Peace Corps Manual section (MS) 201 ―Eligibility and Standards for Peace Corps
Volunteer Service‖ states that a trainee must demonstrate technical competence, which is
defined as ―proficiency in the technical skills needed to carry out the assignment‖ by the
end of training. The post’s calendar of training events indicates that trainees receive over
100 hours of sector-specific training over the 10 week PST period5.

Overall, 64 percent (23 of 36) of interviewed Volunteers stated that their technical
training lacked relevance or applicability to their sites, and some felt unprepared to be
productive in their primary assignment. For some sectors, technical training was too
theoretical and did not provide Volunteers with concrete or practical skills; for other
sectors technical training was irrelevant to the needs at some Volunteer sites. Some
Volunteers also stated that the technical training was too basic for those joining Peace
Corps with advanced skills. Unlike Spanish language instruction, technical training is not
differentiated based on the trainee’s knowledge-level. Comments from Volunteers reflect
their concerns:
       ―There were times it was a waste. They don’t train you to be a Volunteer. …. It was an
       overview of issues in Peru and things to get you involved with. But it doesn’t prepare you
       to be a Volunteer .‖

       ―There was too much theory and talking about best practices. I would have preferred to
       be out there teaching classes or organizing our own lesson plans.‖

       ―These were things that any professional in my field does not need to spend two days
       doing. It was a waste of time…The training was very fundamental and I did not learn a
       lot of new things. They did not differentiate the technical training.‖

       ―It aims to cover everything but you just can’t.‖

       ―I think the problem is getting a group of people ready to go do different places. So
       sometimes the specific technical training is irrelevant if the issues don’t pertain to your
       site. In retrospect, some of the things they did don’t really apply very well to the sierra. If
       [site assignments] were given earlier on, they could have segmented the technical training
       by sierra and coast.‖

Three main factors affect the post’s ability to provide relevant and practical training to
Volunteers in Peru:

       the variety of programming goals and corresponding technical learning objectives
       that must be trained to because the post has five program areas;




Preliminary Program Evaluation Report: Peace Corps/Peru                                                  7
       the variety of sites within Peru; in particular, differences between coastal and
       sierra communities as well as between urban areas and small rural towns; and
       the timing of post’s site assignment decision during PST.

The first two factors—variations in programming and sites—reflect strategic decisions
the post has made in order to address Peru’s diverse development priorities. The third
factor – post communicates site assignment decisions to trainees during week seven or
week eight of PST – has a less compelling rationale. Staff provided various reasons why
they wait until nearly the end of PST to communicate their site assignment decisions to
trainees. Some post staff said it was because they did not have all the sites identified until
then; other staff said it was because they wanted to get to know the trainee in order to
match them to a site where they believed the Volunteer would be successful. Not all staff
agreed that site assignment should happen as late as it does in PST, and some APCDs
were unofficially informing trainees of their likely site assignment earlier in PST.

Post’s current process of waiting so long to inform trainees of their sites makes it
impractical to deliver technical training during PST with a particular focus or emphasis
on Peru’s different local development needs and opportunities. As a result, trainees’ time
during PST is not always used effectively and they attend sessions that have little or no
practical relevance to their sites.


               We recommend:

                  3. That the country director and programming and
                     training staff provide technical training that is
                     more practical and relevant to Volunteer site
                     assignments.


The post is not adequately preparing Volunteers with the language skills needed to
integrate into Quechua-speaking communities.

Approximately 20 percent of Volunteers in Peru are placed in Ancash and Arequipa, two
geographic regions where Quechua is the primary language spoken by many community
members. The post acknowledges the importance of Quechua language ability and has
made efforts to ensure that Volunteers in Ancash and Arequipa receive Quechua
language instruction during their service. The post’s Volunteer handbook states that the
post will provide regional Quechua language training as funds permit, and that
Volunteers should achieve an ―intermediate low‖ language ability level in Quechua by
the end of their first year of service.

Proficiency in the dominant language spoken in the host community is fundamental to the
success of the Volunteer, a fact established in The Peace Corps Act, which states:

       No person shall be assigned duty as a volunteer under this chapter in any foreign country
       or area unless at the time of such assignment he possesses such reasonable proficiency as


Preliminary Program Evaluation Report: Peace Corps/Peru                                            8
       his assignment requires in speaking the language of the country or area to which he is
       assigned

Yet trainees in Peru, including those with advanced Spanish skills well beyond the
swearing-in requirement, do not receive any Quechua language instruction during PST
and arrive at their sites without the basic Quechua language skills they need to integrate
into their host communities. Lack of Quechua language slows the integration process for
these Volunteers and diminishes their potential productivity.

The post delays communicating site assignment decisions to trainees until the seventh or
eighth week of PST, after which there is insufficient time to provide Quechua language
instruction. In addition, the post requires all trainees—including those who arrive at PST
with advanced Spanish language skills--to spend an average of four hours each day of
PST on improving their Spanish.

Volunteers interviewed in Quechua-speaking regions emphasized the importance of
knowing Quechua and affirmed that they could have integrated more effectively in host
communities if they had received more Quechua instruction during PST. Volunteer
reporting forms (VRFs), as well as APCD or PCVC feedback on those reports and site
visit forms, all confirm that Quechua is valuable for community integration and in
encouraging more community involvement in primary assignment activities. Comments
from Volunteers in Quechua-speaking regions reflect their need for Quechua:
       ―Quechua is important to understand what people are saying…It's hard to make friends,
       especially with women.‖

       ―Quechua is important to integrate here.‖

       ―Community meetings are in Quechua and so I miss that.‖

       ―There should have been some Quechua in PST. …. It's a special case here [in Ancash],
       it's not as if Quechua is everywhere [in Peru]. I would have been able to make more
       friends with women if I had had Quechua.‖

Providing a way for Volunteers to arrive at site with increased Quechua language skills
could improve their community integration and effectiveness in primary assignment
activities.

                We recommend:

                  4. That the training manager review the post’s
                     language training program and make necessary
                     changes to ensure that trainees assigned to
                     Quechua-speaking communities have the language
                     skills needed to integrate and be productive at
                     their sites.




Preliminary Program Evaluation Report: Peace Corps/Peru                                         9
Post lacks a reliable method for tracking and analyzing Volunteer progress on core
competencies and learning objectives.

The Peace Corps Programming and Training Guidance: Training Design and Evaluation
advises posts to develop, update, and revise Volunteer training based on input from
stakeholders, data from assessments, and recommendations developed through training
evaluations. This guidance stresses the important role that data plays in allowing posts to
know the extent to which learning objectives have been accomplished. It states, ―it is best
to make changes to training based first and foremost on data about performance and not
just on opinions. ‖ The agency’s Indicators of a High Performing Post notes the
importance of having ―systems in place to both monitor and evaluate the country program
in its various aspects. The information gathered is used to improve the program.‖

Post staff reported that they used multiple methods to assess the extent to which trainees
met learning objectives in major elements of its training program. However, only data
related to Volunteer progress in Spanish language acquisition was tested and tracked
systematically enough to be analyzed. Training staff reported that post lacked an
adequate system for tracking and analyzing Volunteer-level progress on their learning
objectives, and available documentation did not allow us to review the extent to which
Volunteers had met or demonstrated competencies in areas other than Spanish language
acquisition. The lack of a monitoring and evaluation system compromises the post’s
ability to accurately assess the effectiveness of its training program. This in turn makes
the post more susceptible to changing its training program based on how the latest
training group felt about its training rather than on the demonstrated results of the training
program.


               We recommend:

                 5. That the training manager develop and implement
                    a system to better monitor and analyze trainee and
                    Volunteer achievement of their learning
                    objectives.


VOLUNTEER SUPPORT

Our country program evaluation attempts to answer the question, ―Has post provided
adequate support and oversight to Volunteers?‖ To determine this, we assessed numerous
factors, including staff-Volunteer communications; project and status report feedback;
medical support; safety and security support including staff visits to Volunteer work sites,
the Emergency Action Plan (EAP), and the handling of crime incidents; and the adequacy
of the Volunteer living allowance.

In reviewing staff-Volunteer communications, feedback from staff on Volunteer reports,
the quality of site visits, Volunteer medical support, the adequacy of Volunteer living


Preliminary Program Evaluation Report: Peace Corps/Peru                                    10
allowances, and the handling of crime incidents, OIG found no significant areas of
concern that would necessitate action by the post. All interviewed Volunteers rated the
quality of staff feedback on their work reports favorably. When asked how well site visits
from staff met their support needs, 88 percent of Volunteers provided a favorable rating.
Eighty-six percent of interviewed Volunteers said that their living allowance was
adequate. And of the 16 interviewed Volunteers who had reported being the victim of a
crime, 75 percent rated the post’s response to their incident favorably.

One measure of the quality of the Volunteer experience is the early termination rate
which the agency tracks at all posts. Peru’s Volunteer resignation rate is lower than
global averages as the graph below demonstrates:

                          Figure 1. Volunteer Resignation Rates
              10%

               9%

               8%     Global Average

               7%

               6%

               5%

               4%

               3%

               2%     PC/Peru
               1%

               0%
                    FY 2005     FY 2006   FY 2007   FY 2008   FY 2009   FY 2010   FY 2011




The post has a support structure that results in strong Volunteer support overall. In
particular, Volunteers expressed a high degree of appreciation for the quality of support
and encouragement they receive from their RCs, the PCMOs, the training staff, and third
year PCVLs and PCVCs. Senior leadership at the post generally received very high
marks from Volunteers for their supportiveness as well.

The main unique feature of the post’s support structure is the RC, a staff position that few
Peace Corps posts have. Peru is a large country and Volunteers are often placed in
communities far from the main office in Lima that might require a full day’s travel or
more to reach. In response to this challenge, the post based five RCs in regions
throughout Peru where they can provide a wide range of support functions to Volunteers
in their region. Instead of being located in regional houses or offices, the RCs have
vehicles, laptops, and cell phones that enable them to visit Volunteers at their sites and
perform a mix of duties. RCs assist with site identification and development, including
host family identification and orientation, and act as regional representatives with local
and municipal project partners. RCs are often the first staff member to visit a Volunteer
who has been the victim of a crime. Although this report identifies some improvements


Preliminary Program Evaluation Report: Peace Corps/Peru                                     11
that can be made, the quality of Volunteer support in Peru clearly benefits from the work
of the RCs.

The post also assigns third-year extension Volunteers to fill PCVC and PCVL positions.
At the time of the evaluation, eight PCVCs were working in the main office in Lima and
seven PCVLs were based in regional capitals around the country. Interviewed Volunteers
and staff appreciated the support provided by the PCVCs and PCVLs, and it was clear
that they contribute positively to the post’s Volunteer support.

Volunteers’ ratings for support in specific areas were as follows:

                 Table 1: Responses on Perception of Volunteer Support5
                    Support Area                  Percent of            Average Rating
                                               Volunteers Rating         for Support
                                              “Average Support”
                                                   or Better
              Leadership                              91%                       4.2
              Programming                             85%                       4.0
              Training                               100%                       4.6
              Safety and Security                     78%                       3.7
              Medical                                100%                       4.8
              Regional Coordinators                   86%                       4.0
              Administrative                         100%                       4.3
              PCVL/PCVC                               98%                       4.7

Another notable feature of the program is the post’s 27-month homestay model in which
Volunteers live with a host family during PST and throughout their service at their
permanent site. Most Volunteers spoke favorably about their homestay experiences and
stated that it contributed to a high level of community integration and cross-cultural
understanding. Ninety-seven percent of interviewed Volunteers (35 of 36) rated their PST
host family experience as ―average‖ or better. Ninety-four percent of interviewed
Volunteers (34 of 36) rated their in-site living accommodations and host family
experience as ―average‖ or better.


The post’s medical unit provides exemplary Volunteer support.

Although the data demonstrates that many staff members are providing good Volunteer
support, the post’s medical team was highly regarded by Volunteers and warrants noting.

5
  Leadership was derived from the country director score. Programming was derived by averaging the
scores of the APCDs. The director of programming and training (DPT) was too new in her position to be
rated by most Volunteers and is excluded from this calculation. Training was derived by averaging the
ratings for the training manager and senior trainer. Safety and Security was derived from the safety and
security coordinator score. Medical was derived from the collective PCMO scores. Regional Coordinators
and PCVL/PCVC scores were derived from the average scores for individuals in those positions.


Preliminary Program Evaluation Report: Peace Corps/Peru                                               12
Volunteers rated the PCMOs the highest among the staff positions surveyed (100 percent
favorable, 4.8 average), and had many positive things to say about them:

       ―The PCMO takes a very personal interest in the Volunteers… [the PCMO] has visited
       them, not for medical reasons but to get to know them.‖

       ―The PCMO especially reached out…the first day at the office and tried to get to know
       me.‖

       ―They're all extremely nice. They're full of information. And if I need medicine they're
       quick to get it to me. Even if it's not a medical issue and I just need to vent they're there
       for me.‖

       ―They care. They learn our names and this is good. [I] feel friendship with them.‖

Support provided by the post’s medical unit included practices that deserve special note.
The post’s PCMOs take special steps to get to know Volunteers and gain their trust.
Examples noted by interviewed Volunteers include: meeting Volunteers at the airport
when they first arrive in country; taking them to lunch when they visit Lima; visiting
them at their sites, and when appropriate, staying overnight with their host families. The
PCMOs reported that they attempt to call every Volunteer by phone at least once a month
to check in and make sure the Volunteer is okay. Interviewed Volunteers sensed that the
PCMOs love their jobs and care about each of them as individuals. These extra efforts
establish a bond of confidence between the Volunteer and PCMO. The PCMOs reported
that this trust improves the quality of the information Volunteers share concerning their
health and well-being, and, in turn, permits the PCMOs to provide higher quality medical
support.

Post does not sufficiently consider travel-related risks for Volunteers during the site
selection process.

Travelling along Peru’s roads can be dangerous, particularly in mountainous regions
where narrow, steep, winding dirt roads without guardrails skirt the edges of high,
precipitous cliffs. Some Volunteers are in sites that can only be accessed by dirt roads
which, when wet, become slippery and hazardous and may be effectively impassable for
long periods of time during the rainy season. Drivers, Volunteers, and RCs raised
concerns that some Volunteers are placed in sites that can become too risky to travel to
when road conditions are bad.

MS 270.6.2, ―Site Selection Criteria‖, states that ―Each post must develop and apply
criteria for the selection and approval of sites‖, including vulnerability to natural disasters
and transportation. MS 270 also states that ―evaluation of the site and satisfaction of site
selection criteria must be documented by the post.‖ In addition, MS 264.5.0 ―Post
Medical Evacuation Plan‖ requires each post to prepare a country-specific Medical
Evacuation Plan ―to assist the post with the safe and efficient medical evacuation of
Volunteers.‖




Preliminary Program Evaluation Report: Peace Corps/Peru                                                13
We were not able to find evidence that the post takes these heightened seasonal road risks
into consideration during its site identification and selection process. Site identification in
Peru is done by many different individuals, and there is not a standard site identification
and selection process that staff follows. Site identification and selection forms do not
contain information regarding the condition of the roads or the accessibility of the site
when dirt roads are wet and muddy. In addition, the post has not developed a medical
evacuation plan as required by MS 264. As a result, the post may have placed some
Volunteers in seasonably inaccessible locations that would make their or staff’s travel to
or departure from the site overly dangerous for periods of time.

Because of the importance of this issue related to Volunteer safety, OIG took action
before issuing the preliminary report. On December 8, 2011, OIG sent a memo to the
country director (CD) of PC/Peru as well as the regional director of the Inter-America
and the Pacific (IAP) region requesting that the post take action by implementing the
recommendations below. Post responded to this memo on December 30, 2011 outlining
steps that were being taken to address OIG concerns and its plans to mitigate and manage
associated travel risks. See Appendix B for the OIG’s memo and Appendix C for the
agency’s response.


               We recommend:

                 6. That the country director assess the year-round
                    accessibility of each Volunteer, paying particular
                    attention to those sites where dirt roads become so
                    muddy and slippery when wet (i.e., rainy season)
                    that Volunteers are effectively inaccessible by car.

                 7. That the country director identify measures post
                    can take to mitigate heightened seasonal travel
                    risks in order to safely access Volunteers in these
                    areas.


Weaknesses in the post’s safety and security program could compromise its response to
an emergency and place Volunteers in unsafe situations.

According to the agency’s safety and security policy, MS 270, the agency’s safety and
security program depends on ―having plans in place to respond promptly and effectively
to threats or events.‖ MS 270.8.1 states that ―each post must develop and maintain a
detailed EAP that addresses the most likely emergency situations that would impact
Peace Corps personnel and operations.‖

The evaluation uncovered deficiencies in the post’s emergency preparedness, including
Volunteers who could not identify their consolidation points, incomplete site locator




Preliminary Program Evaluation Report: Peace Corps/Peru                                     14
forms, poor compliance with the post’s whereabouts policy, and Volunteer housing that
did not conform with the post’s housing criteria.

Consolidation points
Half of the interviewed Volunteers could not correctly identify their consolidation point.
This is an on-going issue for the post that the regional Peace Corps safety and security
officer (PCSSO) previously noted in a July 2010 MS 270 review. In addition, some
Volunteers expressed doubts that the location of their consolidation point--in the middle
of a crime-prone area of a large city--was an appropriate one.

Site Locator Forms
Site locator forms (SLFs) contain information about the Volunteer’s site, including
communication and logistical information to help staff support Volunteers or travel
quickly to their site during a crisis. We found that SLFs were not being adequately
completed by Volunteers or checked by staff, something the PCSSO also noted in a July
2010 report. The post did not have file copies of many Volunteers’ SLFs prior to the OIG
evaluation announcement. SLFs that were on file had incomplete information; many
sections were missing information, including police and medical contact information,
directions to consolidation points, or directions to Volunteer sites. In addition, some
Volunteers complete the SLF in English. The drivers cannot read these SLFs, making it
difficult for them to follow the directions to Volunteer houses. The post was aware of
deficiencies in its SLFs and hired a temporary worker to improve the Volunteer files.

Whereabouts policy
All posts are required to collect Volunteer whereabouts when they travel away from their
communities. This system better enables staff to reach Volunteers during an emergency.
Although the post has a whereabouts system, Volunteers’ compliance with the post’s
whereabouts policy is low. Just 37 percent of interviewed Volunteers said they report
―always‖ or ―most of the time.‖ Volunteers reported that several factors contribute to
their low level of compliance with the whereabouts policy, including forgetfulness,
confusion over what has to be reported, concerns that the policy is not reasonable, and a
belief that staff do not take whereabouts reporting seriously. The low level of adherence
to this policy could make it difficult for staff to reach Volunteers who are not at their site
during an emergency.

Housing checks
Fifty-nine percent of the houses we visited did not meet all the items on the post’s list of
minimal criteria for Volunteer housing. Common areas of noncompliance included
missing or inadequate locks on bedroom doors and external doors and houses that can be
accessed through the roof. There is no documentation to show that housing checklists
have been completed and reviewed by staff. MS 270.6.3, Housing Standards, requires
that:
       All housing or host family arrangements must be inspected by post staff (or a trained designee)
       prior to occupancy to ensure each house and/or homestay arrangement meets all minimum
       standards as established by the Peace Corps and the post. Reports of the inspections must be
       documented and maintained by the post.



Preliminary Program Evaluation Report: Peace Corps/Peru                                                  15
Because many people, including RCs and PCVLs, are involved in identifying Volunteer
houses, the post needs a way to verify that everyone involved understands the minimal
housing criteria, completes the housing check, and verifies housing safety before the
Volunteer arrives.


               We recommend:

                 8. That the country director ensure that all
                    Volunteers know the location of their
                    consolidation point.

                 9. That the country director require the appropriate
                    staff members to review the accuracy and
                    completeness of every Volunteer’s site locator
                    form.

                 10. That the country director develop and implement
                     a plan to promote a higher level of compliance
                     among Volunteers with the post’s whereabouts
                     policy.

                 11. That the country director ensure that staff inspect
                     Volunteer housing and the post’s minimum
                     standards are met prior to occupancy.

                 12. That the country director ensure that the post is
                     maintaining accurate housing inspection reports.


Settling-in allowances are inadequate for Volunteers moving into unfurnished rooms.

MS 221 section 4 states, ―Upon initial site assignment, Volunteers are provided a
settling-in allowance to purchase necessary housing supplies and equipment. This allows
them to be involved immediately in their communities and gives them freedom to
manage their own affairs.‖ In addition, Characteristics of a High Performing Post,
section 4.10 states that insufficient or out-of-date settling-in allowances should be quickly
corrected.

Overall, 69 percent of interviewed Volunteers rated the adequacy of their settling-in
allowance as ―average‖ or better. However, eleven Volunteers stated that their settling-in
allowance was inadequate to cover the expenses they incurred when moving into their
room. This was most often an issue for Volunteers who moved into unfurnished rooms
and did not have enough money to buy the necessary items, such as a bed, mattress, desk,
and chair.



Preliminary Program Evaluation Report: Peace Corps/Peru                                   16
The post does not provide Volunteer settling-in allowances based on the extent to which
the Volunteer’s room is furnished. As a result, Volunteers who moved into unfurnished
bedrooms often spent personal funds to purchase the furniture and other minimal items
they needed.


                 We recommend:

                    13. That the country director review the settling-in
                        allowance and ensure that it is adequate to cover
                        reasonable expenses Volunteers incur.


MANAGEMENT CONTROLS

Another key objective of our country program evaluation is to assess the extent to which
the post’s resources and agency support are effectively aligned with the post's mission
and agency priorities. To address these questions, we assess a number of factors,
including staffing; staff development; office work environment; collecting and reporting
performance data; and the post’s strategic planning and budgeting.

In reviewing the post’s relationships with headquarters and the U.S. Embassy in Peru;
performance reporting; strategic planning and budgeting; office work environment and
employee morale; and office staffing, OIG found no significant areas of concern that
would necessitate action by the post. Post staff stated that they are well supported by
Peace Corps headquarters. Post staff members also participate in embassy meetings and
maintain effective working relationships with embassy staff, including the RSO, while
still maintaining the necessary independence of Peace Corps.

Volunteers are submitting their VRFs and reported that the information they provide is
reliable. Most interviewed Volunteers stated that the training they received was adequate,
and the PCVCs were available to provide more guidance, if needed.

The post uses an inclusive strategic planning process that represents all of the office’s
units – programming, training, administrative, safety and security, and medical. In
general, staff reported that morale was high. Although some staff reported a heavy
workload due to increasing Volunteer numbers, our analysis revealed that the post’s
staffing levels increased as the number of Volunteers grew. From 2008-2011, the post
added fifteen staff members, and the ratio of staff to Volunteers increased only slightly in
that same timeframe. Some headquarters staff raised concerns that the post was only
operating with two United States Direct Hire (USDH) positions.6 Although the absence

6
  The agency does not have a policy mandating the number of USDH positions at each post, but it has been
standard practice for posts to have three USDH positions. This provides enough staff to perform inherently
governmental activities while also providing back-up for USDH staff who need to leave the office for in-
country travel or for annual leave, medical treatment, etc.


Preliminary Program Evaluation Report: Peace Corps/Peru                                                17
of a third USDH staff member placed some constraints on the country director and
director of programming and training, it did not appear to negatively impact post
operations in the short-term.

Uneven workload distribution impacted the effectiveness of Regional Coordinator
support.

The post employs five RCs. The RCs are located throughout the country in areas of Peru
that have larger Volunteer numbers, enabling them to provide on-the-ground support
more quickly than staff in Lima. According to the staff and Volunteer handbooks, RCs
have a wide range of responsibilities that includes coordinating with local project
partners, conducting site visits, helping to resolve issues Volunteers have with their host
families or counterparts, organizing monthly meetings for Volunteers, sharing
information and best practices among Volunteers, identifying new sites and host families,
and promoting healthy, safe Volunteer behavior.

In general, the post’s RC model appeared to be effective at providing Volunteer support,
as previously discussed in the Volunteer Support section of this report. However, RC
support varied, and 31 percent (11 of 36) of interviewed Volunteers raised concerns that
their RC was too busy or too far away to provide adequate support.

There was variability in the number of Volunteers each RC was required to support,
ranging from 32 to 55 Volunteers. Some RCs also had to support Volunteers who were
spread over a wide geographic area, making it difficult for them to spend time with
Volunteers in more distant communities. Furthermore, the RCs’ workload was not well-
managed. Staff members from multiple units delegated work directly to individual RCs.
The post did not have a way to oversee the RCs’ work and make sure individuals were
not overworked or assigned responsibility for tasks that were outside the scope of their
training and experience.

As a result, there are areas where RC support was inadequate. RCs did not consistently
carry out all of the proper groundwork to select host families, and housing checks were
not being properly completed and documented. Some Volunteers also stated that it was
difficult to get support from their RC with counterpart issues, identifying language tutors,
and finding new housing and host families.


               We recommend:

                 14. That the director of programming and training
                     develop and implement a method to manage and
                     provide oversight of regional coordinators’
                     workload distribution.




Preliminary Program Evaluation Report: Peace Corps/Peru                                  18
PCVCs were not participating in substantive Volunteer activities with an assigned
counterpart.

According to MS 202 section 3.0, ―a Volunteer Leader is first and foremost a
Volunteer… Accordingly, Volunteer Leaders must, in addition to their special Volunteer
Leader services, be involved in at least one substantive Volunteer program or activity
with an assigned counterpart.‖ The post’s Volunteer Handbook states, ―PCVCs and
PCVLs may spend 75% of their time in Volunteer Support but must spend 25% of their
time in projects and roles directly impacting the host community or in strengthening
community organizations.‖

At the time of the evaluation the post had fifteen Volunteers who filled PCVL positions.
Seven of these Volunteers were field-based PCVLs and the other eight Volunteers
supported the Peace Corps office in Lima and were referred to as PCVCs. No concerns
were raised about the work being performed by the field-based PCVLs; however, the
OIG discovered that some of the PCVCs were spending little or no time on Volunteer
activities and did not have an assigned counterpart. PCVCs interviewed as part of the
evaluation were spending almost all of their time assisting in office-related activities,
such as assisting with site development, reviewing Volunteer grant applications, assisting
with training, reviewing and providing feedback on VRFs.

The post does not have a way to monitor the Volunteer work being performed by PCVCs.
Many PCVCs were not required to document their Volunteer activities on an ongoing
basis or submit a VRF, and the post had not established a method of ensuring that PCVCs
are spending at least 25 percent of their time on substantive Volunteer activities.
Furthermore, some PCVCs reported that a Volunteer assignment had not been arranged
prior to them taking the position, and they have had difficulty setting up productive
volunteer assignments while in Lima.

Although the work being performed by the PCVCs is highly valued by staff and
Volunteers, the post needs to ensure that the PCVCs have Volunteer assignments that
comply with agency policy.


               We recommend:

                15. That the associate Peace Corps directors ensure
                    Peace Corps volunteer coordinators are involved
                    in at least one substantive Volunteer program or
                    activity with an assigned counterpart.

                16. That the director of programming and training
                    develop and implement a method for staff to
                    monitor Peace Corps volunteer coordinators’
                    Volunteer work to make sure there is an




Preliminary Program Evaluation Report: Peace Corps/Peru                                 19
                    appropriate balance, consistent with agency policy,
                    between their staff and Volunteer responsibilities.

PRESIDENT’S EMERGENCY PLAN FOR AIDS RELIEF (PEPFAR)

Another objective of this post evaluation is to answer the question ―is the post able to
adequately administer the PEPFAR program, support Volunteers, and meet its PEPFAR
objectives?‖ To answer this question, we evaluate:

       Whether the post is implementing its PEPFAR objectives as laid out in the annual
       implementation plan.
       Relationships between the post and coordinating partners.
       Whether Volunteers are fulfilling HIV/AIDS-related assignments and handling
       related challenges.

The post has a small PEPFAR budget of only $50,000 for fiscal year 2011. In reviewing
the post’s PEPFAR program, OIG learned of concerns related to the post’s 2012
PEPFAR budget amount and funding delays for 2011; however, these cannot be
addressed by the agency.

The post appears to have a well-run PEPFAR program. Fifty-eight percent of interviewed
Volunteers reported some level of involvement in HIV/AIDS activities, and
representatives from Peace Corps’ Office of Global Health and HIV commented
favorably about the post’s ability to use its PEPFAR money and engage in meaningful
work. Despite these positive results, the post’s 2012 PEPFAR funding request for
$100,000 was not approved so the post will not be receiving money for the fiscal year. It
was reported that this was a decision made by the Office of the U.S. Global AIDS
Coordinator, and the Peace Corps is unable to reverse the decision.

Furthermore, the post has not received $50,000 in fiscal year 2011 PEPFAR funding,
which has prevented Volunteers from engaging in activities that rely on this money.
Interviewed Volunteers reported that this impacted their ability to participate in World
AIDS Day activities and receive Volunteer activities support and training grant funding.
A representative from Peace Corps’ OGHH reported that the post is not expected to
receive this money from the Department of State until sometime in 2012, months after
the end of the fiscal year for which the money was intended.




Preliminary Program Evaluation Report: Peace Corps/Peru                                20
            OBJECTIVE, SCOPE, AND METHODOLOGY
The purpose of OIG is to prevent and detect fraud, waste, abuse, and mismanagement and
to promote economy, effectiveness, and efficiency in government. In February 1989, the
Peace Corps OIG was established under the Inspector General Act of 1978 and is an
independent entity within the Peace Corps. The Inspector General is under the general
supervision of the Peace Corps Director and reports both to the Director and Congress.

The Evaluation Unit within the Peace Corps OIG provides senior management with
independent evaluations of all management and operations of the Peace Corps, including
overseas posts and domestic offices. OIG evaluators identify best practices and
recommend program improvements to comply with Peace Corps policies.

The OIG Evaluation Unit announced its intent to conduct an evaluation of PC/Peru on
September 7, 2011. For post evaluations, we use the following researchable questions to
guide our work:

   To what extent has post developed and implemented programs to increase host
   country communities’ capacity?
   Does training prepare Volunteers for Peace Corps service?
   Has the post provided adequate support and oversight to Volunteers?
   Are post resources and agency support effectively aligned with the post’s mission and
   agency priorities?
   Is the post able to adequately administer the PEPFAR program, support Volunteers,
   and meet its PEPFAR objectives?

The evaluation team conducted the preliminary research portion of the evaluation
September 8-October 28, 2011. This research included a review of agency documents
provided by headquarters and post staff; interviews with management staff representing
the IAP region, the office of overseas programming and training support (OPATS), PCR,
Office of Global Health and HIV, and the Office of Safety and Security (SS); and
inquiries to the Office of Volunteer Recruitment and Selection (VRS), Office of
Intergovernmental Affairs and Partnerships, the Office of Private Sector Initiatives, and
the office of Volunteer Support (VS). After completing fieldwork, information was
gathered from Masters International and Counseling and Outreach Unit staff.

In-country fieldwork occurred from October 31-November 18, 2011, and included
interviews with post senior staff in charge of programming, training, and support; the
embassy Chargé D’Affaires; the embassy regional security officer (RSO), Deputy RSO,
and Assistant RSO; and host country government ministry officials. In addition, we
interviewed a stratified judgmental sample of 36 Volunteers (15 percent of Volunteers
serving at the time of our visit) based on their length of service, site location, project
focus, gender, age, and ethnicity.




Preliminary Program Evaluation Report: Peace Corps/Peru                                  21
This evaluation was conducted in accordance with the Quality Standards for Inspections,
issued by the Council of the Inspectors General on Integrity and Efficiency (formerly the
President’s Council on Integrity and Efficiency). The evidence, findings, and
recommendations provided in this report have been reviewed by agency stakeholders
affected by this review.


                            INTERVIEWS CONDUCTED
As part of this post evaluation, interviews were conducted with 36 Volunteers, 20 staff
members in-country, and 30 representatives from Peace Corps headquarters in
Washington D.C., the U.S. Embassy in Peru, and key ministry officials. Volunteer
interviews were conducted using a standardized interview questionnaire, and Volunteers
were asked to rate many items on a five-point scale (1 = not effective, 3 = average
effective, 5 = very effective). The analysis of these ratings provided a quantitative
supplement to Volunteers’ comments, which were also analyzed. For the purposes of the
data analysis, Volunteer ratings of ―3‖ and above are considered favorable. In addition,
27 out of 36 Volunteer interviews occurred at the Volunteers’ homes, and we inspected
26 homes using post-defined site selection criteria.7 The period of review for a post
evaluation is one full Volunteer cycle (typically 27 months).

The following table provides demographic information that represents the entire
Volunteer population in Peru at the time of the evaluation fieldwork; the Volunteer
sample was selected to reflect these demographics.

                            Table 2: Volunteer Demographic Data
                                                                      Percentage of
                                  Project
                                                                       Volunteers
              Community Health and HIV/AIDS                               21%
              Environmental Management                                    17%8
              Small Business Development                                  16%
              Water and Sanitation                                        17%
              Youth Development                                           29%
                                                                      Percentage of
                                  Gender
                                                                       Volunteers
              Female                                                      60%
              Male                                                        40%
                                                                      Percentage of
                                    Age
                                                                       Volunteers
              25 or younger                                               63%
              26-29                                                       30%

7
  Nine interviews did not occur at the Volunteer’s residence. A married couple was included in the
Volunteer sample but their residence and associated housing check was only counted once in our analysis
to avoid double-counting.
8
  The environmental management project includes one PCRV.


Preliminary Program Evaluation Report: Peace Corps/Peru                                               22
                 30-49                                                         6%
                 50 or over                                                    1%
                Source: Volunteer roster provided by post in September 2011.
                Note: Percentages may not total 100% due to rounding.

At the time of our field visit, the post had 44 full-time staff positions. The post also
employed 22 temporary training staff to assist with PST. We interviewed 20 staff
members.

                 Table 3: Interviews Conducted with PC/Peru Staff Members
                              Position                       Status   Interviewed
       Country Director                                                  USDH                   X
       Director of Programming and Training                              USDH                   X
       APCD (5)                                                          PSC*                   X
       Program Specialist (2)                                            PSC
       Program Assistant (3)                                             PSC
       Regional Coordinator (5)                                          PSC                    X
       Resource Center Manager                                           PSC
       Training Manager                                                  FSN*                   X
       Senior Trainer                                                    PSC                    X
       Year Round Tech Trainer                                           PSC
       Language Coordinator9                                             PSC
       Training Secretary                                                PSC
       Training Administrative Assistant                                 PSC
       PCMO (3)                                                          PSC                    X
       Medical Assistant (2)                                             PSC
       Safety and Security Coordinator                                   PSC                    X
       Director of Management and Operations                             FSN                    X
       IT Specialist                                                     PSC
       Cashier/Administrative Assistant                                  FSN
       Financial Specialist                                              FSN
       Financial Assistant                                               PSC                    X
       Administrative Assistant/Human Resources – Voucher                PSC
       Examiner
       Administrative Assistant/General Services Officer                 PSC
       Administrative Assistant/Travel                                   PSC
       Voucher Examiner/Receptionist                                     PSC
       Driver/General Services                                           PSC
       Driver (2)                                                        PSC
       Janitor (3)                                                       PSC
       Data as of November 2011. *PSC is personal services contractor; FSN is foreign service national.

Thirty additional interviews were conducted during the preliminary research phase of the
evaluation, in-country fieldwork and follow-up work upon return to Peace Corps
headquarters in Washington, D.C.


9
    The Language Coordinator is not a full-time position year-round.


Preliminary Program Evaluation Report: Peace Corps/Peru                                                   23
            Table 4: Interviews Conducted with PC/Headquarters Staff,
                   Embassy Officials and Key Ministry Officials
                        Position                        Organization
     Regional Director                                    PC/Headquarters/ IAP Region
     Chief of Operations                                  PC/Headquarters/ IAP Region
     Chief of Programming and Training                    PC/Headquarters/ IAP Region
     Country Desk Officer                                 PC/Headquarters/ IAP Region
     Roving Administrative Officer                        PC/Headquarters/ IAP Region
     Regional Security Advisor                            PC/Headquarters/ IAP Region
     Director                                             PC/Headquarters/PCR
     Programming Specialist                               PC/Headquarters/PCR
     Director, Office of Global Health and HIV            PC/Headquarters/OGHH
     Chief of Programming and Training                    PC/Headquarters/OGHH
     Administrative Specialist                            PC/Headquarters/OGHH
     Program and Training Specialist/ Environment and     PC/Headquarters/OPATS
     Agriculture
     Programming & Training Specialist/ Small             PC/Headquarters/OPATS
     Enterprise Development
     Programming & Training Specialist/ Youth             PC/Headquarters/OPATS
     Development and Education
     Peace Corps Safety and Security Officer - Peru       PC/Headquarters/SS
     Deputy Director, Counseling and Outreach Unit        PC/Headquarters/VS
     Assistant Program Manager, Master's International    PC/Headquarters/VRS
     Program Support Assistant                            PC/Headquarters/VRS
     Chargé D’Affaires                                    U.S. Embassy in Peru
     Regional Security Officer                            U.S. Embassy in Peru
     Deputy Regional Security Officer                     U.S. Embassy in Peru
     Assistant Regional Security Officer                  U.S. Embassy in Peru
     Director                                             Peru’s Ministry of Education,
                                                          Special Education Department
     Assistant                                            Peru’s Ministry of Education,
                                                          Special Education Department
     National Director of Artisanry                       Peru’s Ministry of Foreign
                                                          Trade and Tourism
                                                          (MINCETUR)
     Director of Innovation Centers                       Peru’s Ministry of Foreign
                                                          Trade and Tourism
                                                          (MINCETUR)
     Director of Protected Areas Management               National Parks Service
     Tourism Specialist                                   National Parks Service
     Advisor                                              National Parks Service
     Healthy Schools Coordinator                          Ministry of Health
       Data as of December 2011.




Preliminary Program Evaluation Report: Peace Corps/Peru                                   24
                     LIST OF RECOMMENDATIONS
WE RECOMMEND:

1. That the programming staff document the post’s programmatic site selection criteria
   and communicate the criteria to all staff involved in site development.

2. That the director of programming and training develop and implement a plan to
   improve communication with project partners to gather their input and provide
   feedback on project results.

3. That the country director and programming and training staff provide technical
   training that is more practical and relevant to Volunteer site assignments.

4. That the training manager review the post’s language training program and make
   necessary changes to ensure that trainees assigned to Quechua-speaking
   communities have the language skills needed to integrate and be productive at their
   sites.

5. That the training manager develop and implement a system to better monitor and
   analyze trainee and Volunteer achievement of their learning objectives.

6. That the country director assess the year-round accessibility of each Volunteer,
   paying particular attention to those sites where dirt roads become so muddy and
   slippery when wet (i.e., rainy season) that Volunteers are effectively inaccessible by
   car.

7. That the country director identify measures post can take to mitigate heightened
   seasonal travel risks in order to safely access Volunteers in these areas.

8. That the country director ensure that all Volunteers know the location of their
   consolidation point.

9. That the country director require the appropriate staff members to review the
   accuracy and completeness of every Volunteer’s site locator form.

10. That the country director develop and implement a plan to promote a higher level of
    compliance among Volunteers with the post’s whereabouts policy.

11. That the country director ensure that staff inspect Volunteer housing and the post’s
    minimum standards are met prior to occupancy.

12. That the country director ensure that the post is maintaining accurate housing
    inspection reports.




Preliminary Program Evaluation Report: Peace Corps/Peru                                25
13. That the country director review the settling-in allowance and ensure that it is
    adequate to cover reasonable expenses Volunteers incur.

14. That the director of programming and training develop and implement a method to
    manage and provide oversight of regional coordinators’ workload distribution.

15. That the associate Peace Corps directors ensure Peace Corps volunteer coordinators
    are involved in at least one substantive Volunteer program or activity with an
    assigned counterpart.

16. That the director of programming and training develop and implement a method for
    staff to monitor Peace Corps volunteer coordinators’ Volunteer work to make sure
    there is an appropriate balance, consistent with agency policy, between their staff
    and Volunteer responsibilities.




Preliminary Program Evaluation Report: Peace Corps/Peru                                26
APPENDIX A


                             LIST OF ACRONYMS
 APCD                     Associate Peace Corps Director
 AVS                      Annual Volunteer Survey
 CD                       Country Director
 DPT                      Director of Programming and Training
 EAP                      Emergency Action Plan
 HDI                      Human Development Index
 IAP                      Inter-America & the Pacific
 MS                       Manual Section
 NGO                      Nongovernmental organization
 OIG                      Office of Inspector General
 OGHH                     Office of Global Health and HIV
 OPATS                    Overseas Programming and Training Support
 PCMO                     Peace Corps Medical Officer
 PCR                      Peace Corps Response
 PCSSO                    Peace Corps Safety and Security Officer
 PCVC                     Peace Corps Volunteer Coordinator
 PCVL                     Peace Corps Volunteer Leader
 PEPFAR                   President’s Emergency Plan for AIDS Relief
 PST                      Pre-service training
 RC                       Regional Coordinator
 RSO                      Regional Security Officer
 SLF                      Site locator form
 SS                       Office of Safety and Security
 USDH                     United States direct hire
 VAD                      Volunteer Assignment Description
 VRF                      Volunteer Reporting Form
 VRS                      Office of Volunteer Recruitment and Selection
 VS                       Office of Volunteer Support




Preliminary Program Evaluation Report: Peace Corps/Peru                   27
APPENDIX B


                            AGENCY’S RESPONSE




Memorandum
To:        Kathy Buller, Inspector General
Through:   Daljit K. Bains, Chief Compliance Officer

From:         Carlos J. Torres, Regional Director, Inter-America and Pacific
              Sanjay Mathur, Country Director, Peru

Date:         March 15, 2012

CC:           Carrie Hessler-Radelet, Deputy Director
              Stacy Rhodes, Chief of Staff
              Joaquin Ferrao, Deputy Inspector General
              Jim O’Keefe. AIG/Evaluations
              Esther Benjamin, Associate Director, Global Operations
              Nancy Miller, General Counsel
              Ed Hobson, Associate Director of Safety and Security
              Howard Lyon, Chief of Operations Advisor, Inter-America and Pacific
              Amy Johnson, Chief of Programming and Training, Inter-America and
Pacific
              Aimee Cooper, Country Desk Officer
Subject:      Response to the Preliminary Report on the Evaluation of Peace Corps/Peru




Enclosed please find the Inter-America and Pacific Region’s (IAP) response to the
recommendations made by the Inspector General for Peace Corps/Peru, as outlined in the
Preliminary Report of the IG Evaluation sent to the agency on January 31, 2012. The
evaluation was conducted from October 31st through November 18th, 2011.

The IAP Region concurs with all 16 recommendations.

Response to the January 2012 Preliminary Report of the Office of Inspector General
Program evaluation of Peace Corps/Peru.



Preliminary Program Evaluation Report: Peace Corps/Peru                              28
APPENDIX B


1. That the programming staff document the post’s programmatic site selection
   criteria and communicate the criteria to all staff involved in site development.

Concur: Specific programmatic site selection criteria for each of the post’s five projects
are documented and found on pages 5-7 of the new Site Development Manual. These
project-specific site criteria address: area and population, local government presence, the
presence of other key institutions and collaborating organizations, and the work potential
of the site. This Site Development Manual will be in use until the IAP Region creates
comprehensive regional guidelines for site development and monitoring, at which time
Peru’s Site Development Manual may be revised to reflect additional regional guidelines
as required.

   Documents Submitted:
      Site development manual, pages 5-7
      Copy of e-mail sent by Country Director to all staff on March 9, 2012 containing
      the new Site Development Manual

   Status and Timeline for Completion: March 9, 2012 and ongoing

2. That the Director of Programming and Training develop and implement a plan
   to improve communication with project partners to gather their input and
   provide feedback on project results.

Concur: Post concurs yet wishes to emphasize, as acknowledged in the report, the active
involvement of Peace Corps/Peru with partner agencies in all projects. Given that Peru is
so geographically large, the impact of collaboration between Volunteers and partners is
felt more at the local and regional level. The local offices and regional representatives of
government ministries, such as the national parks service (SERNANP) and the health
ministry (MINSA), as well as municipalities, are Peace Corps’ most vested partners.
These partners help identify sites for Volunteers and post staff regularly share results,
including the post’s annual report, in both group meetings and one-on-one meetings with
them. Interaction with partners is not presently structured as in a Project Advisory
Committee (PAC) or similar committee of stakeholders that could engage in project plan
updates, decisions relating to Peru’s development priorities, and Focus In/Train Up
strategies. However, working with the decentralized nature of actual partner operations
and the feasibility factors of time, distance, and budget, the Director of Programming and
Training will develop with each APCD on a project-specific plan to communicate
information with partners, to solicit their feedback on results, and to solicit their input in
project planning. Whether this results in the formation of a PAC or a decentralized
committee of stakeholders will be determined. By June 29, 2012, each APCD will have
developed a written communications plan, identifying key project stakeholders, with
whom project outcomes and results will be formally shared and whose input will be
solicited on project plan updates and plans.

   Documents to be submitted:
      Communications plan from each APCD


Preliminary Program Evaluation Report: Peace Corps/Peru                                    29
APPENDIX B



Status and timeline for completion: June 29, 2012 and ongoing

3. That the Country Director and programming and training staff provide
   technical training that is more practical and relevant to Volunteer site
   assignments.

Concur: As one strategy for making technical training as relevant and practical as
possible in relation to Volunteer site assignments, post will advance assignment of
Trainees to a specific department of Peru and a specific geography (coast or sierra) to
week five of the current ten-week Pre-Service Training (PST). Assignments to a specific
community within the departments will be made by week seven. Given the variety of
sites due to Peru’s geographical diversity, this will enable Trainees earlier in PST to pay
particular attention to technical training information and activities applicable to their
future site. It will also allow them to establish earlier communication with an outgoing
Volunteer if they are replacing a Volunteer. It will enable programming and training
staff to provide a degree of technical training information that is specific to the areas
where these Trainees will serve earlier in PST.

   Documents submitted:
      Site Development Manual, site development timeline on page 11
      Copy of e-mail sent by Country Director on March 9, 2012 to all staff containing
      the new Site Development Manual and highlighting earlier site assignments, as
      per the timeline on page 11

   Documents to be submitted:
      COTE for Peru 19

   Status and timeline for completion: July 9, 2012 and ongoing

4. That the Training Manager review the post’s language training program and
   make necessary changes to ensure that trainees assigned to Quechua-speaking
   communities have the language skills needed to integrate and be productive at
   their sites.

Concur: Assignment of Trainees to departments and a geography (coast/sierra) within
departments will occur in week five of PST, making it possible to begin some Quechua
training during PST depending on site assignments in each project. Post will:
    1) Identify tutors to begin Quechua sessions during PST, with the amount of
        instruction to be determined based on Trainee progress towards minimum
        required Spanish level of Intermediate Mid;
    2) Purchase Quechua language learning materials for Trainee and Volunteer self-
        study;
    3) Identify regional Quechua tutors and organize Quechua courses of one to two
        weeks after Swearing-In to take place in regions of Ancash, Huancavelica, or
        Arequipa;


Preliminary Program Evaluation Report: Peace Corps/Peru                                  30
APPENDIX B


   4) Provide opportunities for additional language tutoring as requested by Volunteers
      who need more Quechua;

Post fully supports goals of local language learning but wishes to note that Quechua-
speaking areas are also Spanish-speaking areas and PCVs are not placed in any areas that
are monolingual Quechua-speaking areas. In addition, the dialects of Quechua vary
widely between the departments of Ancash, Arequipa, and Huancavelica. Different
tutors and classes will be required for Volunteers going to Quechua-speaking areas in
each of these departments.

   Documents to be submitted:
      List of Quechua tutors
      COTE for Peru 19
      List of newly acquired Quechua language material

   Status and timeline for completion: August 2012 and ongoing

5. That the Training Manager develop and implement a system to better monitor
   and analyze trainee and Volunteer achievement of their learning objectives.

Concur: The Training Manager is currently adapting a tracking tool from another post
that will be adapted to local context and used in PST and Early IST to monitor Trainee
and Volunteer achievement of their learning objectives. In order to measure achievement
of the learning objectives, the Training Manager will create an assessment packet,
including criterion reference tests, questionnaires, and observation check lists for PST
and Early IST. The DPT and Training Manager will train the staff on how to use and
implement the tracking tool in preparation for the next PST in June.

   Documents submitted:
      Tracking Tool

   Documents to be submitted:
      Assessment packet

   Status and timeline for completion: June 2012 and ongoing

6. That the Country Director assess the year-round accessibility of each Volunteer,
   paying particular attention to those sites where dirt roads become so muddy and
   slippery when wet (i.e., rainy season) that Volunteers are effectively inaccessible
   by car.

Concur: Post has completed the actions identified in the December 29, 2011 memo to
OIG. As a result, a total of sixteen current sites (affecting seventeen PCVs) in four
different departments will not be replaced specifically due to travel concerns. None of
these sites requires an immediate withdrawal. The rainy season ends in April and
Volunteers currently serving in these sites will be withdrawn by December 15, 2012 and


Preliminary Program Evaluation Report: Peace Corps/Peru                               31
APPENDIX B


the start of the new rainy season. Regarding future site selection, post now has a Site
Selection Criteria Checklist and a written site identification and selection process as
outlined in the new Site Development Manual. The first item in the new Site Criteria
Checklist specifically addresses year-round accessibility, with additional items and
precautions related to access issues including emergency transportation, medical
facilities, and regular public transportation.

   Documents submitted:
      Site Development Manual, accessibility criteria on page 4 and Site Criteria
      Checklist on page 20
      Country Director e-mail sent on March 9, 2012 to all staff and containing the new
      Site Development Manual
      List of sites that will not be replaced and dates that all current PCVs will have
      COSed from sites
      EAP (updated February 2012)

   Status and timeline for completion: December 15, 2012 and ongoing

7. That the Country Director identify measures post can take to mitigate
   heightened seasonal travel risks in order to safely access Volunteers in these
   areas.

Concur: Post completed its annual Transportation Policy update, approved by the
Region, and communicated it to all Volunteers on February 24, 2012. The update
specifically identifies steps Volunteers can take to mitigate travel risks in the rainy
season. The process of consulting with Volunteers and applying the new Site Criteria
Checklist has also raised Volunteer awareness of medical facilities and vehicles in or near
site for evacuation purposes. In addition, as of March 5, 2012, post has developed a
medical evacuation plan for each Volunteer. The detailed information on emergency
medical contacts and transportation options has been made available to all staff and a
copy has been sent to OMS.

   Documents submitted:
      Transportation policy (updated February 2012)
      Country Director e-mail sent on February 24, 2012 to all PCVs and staff
      containing Transportation Policy update and advising that discussion of
      transportation policy will be an agenda item in future regional meetings
      Medical Evacuation Plan, 2012
      PCMO e-mail sent on March 5, 2012 to all staff containing Medical Evacuation
      Plan
      EAP (updated February 2012)

   Status and timeline for completion: March 5, 2012 and ongoing

8. That the Country Director ensure that all Volunteers know the location of their
   consolidation point.


Preliminary Program Evaluation Report: Peace Corps/Peru                                   32
APPENDIX B



Concur: Post recently changed its consolidation points from less familiar, more
expensive hotels in regional capitals to the more familiar hostels often used by
Volunteers. None of the new consolidation points are in crime-prone areas. Post also
performed the annual update of the Emergency Action Plan (EAP), with approval of the
PCSSO. New consolidation points are in the EAP. A summary guide of the EAP, that
includes the new consolidation points, was sent out by the Country Director to all PCVs
on March 2, 2012. The SSC also sent an e-mail to Regional Coordinators, PCVLs, and
wardens to remind Volunteers of the new consolidation points at future regional
meetings.

   Documents submitted:
      List of consolidation points
      Country Director e-mail sent on March 2, 2012 to all Volunteers informing them
      of new consolidation points and attaching list of Consolidation Points and EAP
      Quick Reference Guide
      Safety & Security Coordinator e-mail sent on March 5, 2012 to Regional
      Coordinators, PCVLs, and wardens to remind Volunteers of the new
      consolidation points at future regional meetings
      EAP quick reference guide

   Status and timeline for completion: March 5, 2012 and ongoing

9. That the Country Director requires the appropriate staff members to review the
   accuracy and completeness of every Volunteer’s site locator form.

Concur: The post developed and implemented new procedures on collecting site locator
forms with the Peru 18 Training Group that swore in on November 25, 2011. To date,
post has all initial Site Locator Forms for Peru 18 Volunteers and final Site Locator
Forms for all other Volunteers.

   Documents submitted:
      Country Director memo sent to P&T staff and others on March 1, 2012 regarding
      policy and procedures on site locator forms
      Country Director e-mail containing memo sent to P&T staff and others on March
      1, 2012 regarding policy and procedures on site locator forms
      Sampling of three completed Volunteer site locator forms

   Status and timeline for completion: March 1, 2012 and ongoing

10. That the Country Director develop and implement a plan to promote a higher
    level of compliance among Volunteers with the post’s whereabouts policy.

Concur: Post made changes to the policy in June 2011 that have increased whereabouts
reporting, but much still needs to be done. Per the recommendation made in the MS 270
review of post operations in July 2010, the current policy treats whereabouts as a safety


Preliminary Program Evaluation Report: Peace Corps/Peru                                33
APPENDIX B


and security issue and not a programming issue. PCVs no longer report to their Program
Assistant or supervisory chain of command but to an offsite line monitored by the SSC
and an administrative assistant. This has helped to increase whereabouts reporting, to
build trust between Volunteers and staff, and to counter a perception that Volunteers are
treated like children and not adults. Post will now implement a sustained education
program focused on training PCVLs and other warden PCVs, with the support of
Regional Coordinators, to conduct tri-annual sessions at regional meetings with all PCVs
on a variety of scenarios highlighting the broader importance of emergency preparedness,
the EAP and consolidation points, and whereabouts reporting in every case. Post will
also conduct EAP drills at least twice annually instead of once annually as at present.
Post will continue to take disciplinary action, up to and including administrative
separation, with Volunteers who have not complied with the whereabouts policy. Post
will also explore an acceptable incentive system to reward PCVs who consistently report
their whereabouts over a sustained period of time.

   Documents submitted:
      E-mail sent on March 14, 2012 from CD to all Volunteers and staff containing a
      reminder of the whereabouts policy
      Whereabouts Reporting Policy
      EAP (updated February 2012)

   Status and timeline for completion: March 13, 2012 and ongoing

11. That the Country Director ensure that staff inspect Volunteer housing and the
    post’s minimum standards are met prior to occupancy.

Concur: The Host Family and Housing Survey has been revised and is part of the new
Site Development Manual. The Site Development Manual was e-mailed by the Country
Director to all staff on March 9, 2012. The DPT will oversee the site development
process that will ensure that staff inspect Volunteer housing prior to occupancy and that
compliance with the post’s own minimum standards are met prior to occupancy.
Ensuring that upgrades are made prior to Volunteer arrival may require changes that
result in advance payments to some host families for carrying out upgrades such as a door
or window that meets post minimum criteria.

   Documents submitted:
      Site development manual, host family and housing survey on pages 27-29
      Country Director e-mail sent on March 9, 2012 to all staff and containing the new
      Site Development Manual and highlighting new housing minimum criteria

   Status and timeline for completion: March 9, 2012 and ongoing

12. That the Country Director ensure that the post is maintaining accurate housing
    inspection reports.




Preliminary Program Evaluation Report: Peace Corps/Peru                               34
APPENDIX B


Concur: Hard copies of the Host Family and Housing Surveys filled out by staff and
PCVLs will be kept in PCV files in the office. Staff and PCVLs will e-mail photos to the
SSC for approval demonstrating that necessary upgrades have been made in advance of
Volunteer arrival. As with site locator forms, both the SSC and the DPT will make spot
checks to ensure timely and accurate documentation on file.

  Documents submitted:
     Country Director e-mail sent on March 9, 2012 to all P&T staff and others
     regarding policy and procedures on maintaining PCV files

  Documents to be submitted:
     Sampling of three host family and housing surveys

  Status and timeline for completion: March 9, 2012 and ongoing

13. That the Country Director review the settling-in allowance and ensure that it is
    adequate to cover reasonable expenses that Volunteers incur.

Concur: At time of the evaluation conducted by OIG, all PCVs received $200. In
January and February 2012, post conducted a settling-in allowance survey, obtaining
responses from 78% of the 108 active PCVs who swore in as Volunteers in August and
November 2011. Volunteers moving into furnished rooms (30% of respondents) spent an
average of $163 in settling-in costs while Volunteers moving into unfurnished rooms
(70% of respondents) spent an average of $287. Post has changed the policy on settling-
in allowances so that Volunteers moving into furnished rooms will receive an allowance
of approximately $165 in local currency and Volunteers moving into unfurnished rooms
will receive an allowance of approximately $290 in local currency. This policy is
currently implemented for Volunteers who require host family or site changes and will be
fully implemented with the arrival of the June training class.

   Documents submitted:
      Settling-in allowance survey, January-February 2012
      New settling-in allowance policy, for inclusion in the June 2012 version of the
      Volunteer Handbook

   Status and timeline for completion: March 1, 2012 and ongoing

14. That the Director of Programming and Training develop and implement a
    method to manage and provide oversight of regional coordinators’ workload
    distribution.

Concur: Recent hiring of a sixth Regional Coordinator has helped even out the ratio of
PCVs to Regional Coordinators (RCs), who now manage between 27 and 42 Volunteers
per RC. Post finds this to be an acceptable variation, with RCs in coastal areas, where
Volunteers are more accessible, having more PCVs to support. In regards to RCs being
contacted for items at short notice by Lima staff of different units, the DPT has analyzed


Preliminary Program Evaluation Report: Peace Corps/Peru                                 35
APPENDIX B


the position and communicated RC priorities to all staff and Volunteers. Staff has been
instructed to communicate non-emergency requests one month in advance, copying the
DPT, and taking into consideration the RC travel calendar that has been set up on MS
Outlook and that will be maintained by the DPT and Executive Assistant. In addition,
post has recently purchased Blackberrys to enable RCs to read and respond to e-mail
more regularly during travel and to increase communication and efficiency. The DPT has
also reminded Volunteers of RC’s multiple responsibilities so that they may have realistic
expectations of timely support.

   Documents submitted:
      List of RCs and their PCV numbers
      DPT e-mail sent on March 14, 2012 to staff outlining the RCs priorities and
      instructions to communicate non-emergency request one month in advance
      DPT e-mail sent on March 14, 2012 to Volunteers outlining realistic expectations
      for support

   Status and timeline for completion: March 9, 2012 and ongoing

15. That the Associate Peace Corps Directors (APCDs) ensure Peace Corps
    Volunteer Coordinators are involved in at least one substantive Volunteer
    program or activity with an assigned counterpart.

Concur: At present, all PCVCs have at least one substantive direct service assignment
with a counterpart and host country agency. For 2012 and the next selection of PCVCs,
the DPT and APCDs have begun implementing changes to assure that these assignments
are developed as part of the PCVC selection process and at least one month before PCVC
assignments begin. This includes timely receipt of the Request for Volunteer letter from
the host country agency and processing of the Concurrence memos with the IAP Region.
Volunteers will report their community assignment activities using the Volunteer
Reporting Form (VRF). Reporting will be monitored by their APCDs.

   Documents submitted:
      New PCVL/C position description and responsibilities
      DPT e-mail sent on February 23, 2012 to Volunteers and staff announcing new
      positions and containing the new PCVL/C position description and
      responsibilities

   Status and timeline for completion: February 23, 2012 and ongoing

16. That the Director of Programming and Training (DPT) develop and implement
    a method for staff to monitor Peace Corps’ Volunteer Coordinators’ volunteer
    work to make sure there is an appropriate balance, consistent with agency
    policy, between their staff and Volunteer responsibilities.

Concur: At present, all PCVCs have a substantive assignment and are using the VRF for
reporting purposes. Post has announced upcoming positions and shared the new position


Preliminary Program Evaluation Report: Peace Corps/Peru                                36
APPENDIX B


description, which identifies a 40% PCVC time commitment to their direct service
community assignments. The DPT will work with APCDs to ensure that both Volunteers
and staff understand the PCVC’s commitment to their host agencies and obtain an
appropriate balance of workload. APCDs will schedule an average of two days weekly
that PCVCs will work with their host agencies. APCDs will also use the VRF to monitor
PCVC productivity, outcomes, and results in their community assignments. The DPT
will also solicit feedback from PCVCs.

   Documents submitted:
      DPT e-mail sent on February 23, 2012 to Volunteers and staff announcing new
      positions and containing the new PCVL/C position description and
      responsibilities

   Status and timeline for completion: February 23, 2012 and ongoing




Preliminary Program Evaluation Report: Peace Corps/Peru                             37
APPENDIX C


                                OIG COMMENTS
Management concurred with all 16 recommendations. Based on the documentation
provided, we closed 8 recommendations: 1, 6-11, and 13. In its response, management
described actions it has taken or intends to take to address the issues that prompted each
of our recommendations. In closing recommendations we are not certifying that the
agency has taken these actions or that we have reviewed their effect. Certifying
compliance and verifying effectiveness are management’s responsibilities. If we
determine it is warranted, we may conduct a follow-up review to confirm that action has
been taken and to evaluate the impact.

We wish to acknowledge the comprehensive manner in which the post responded to the
report and our recommendations. Immediately after we completed fieldwork, we
requested that the post assess the year-round accessibility of each Volunteer and identify
measures to mitigate heightened seasonal travel risks. In response, the post took
aggressive and systematic steps to identify Volunteer sites with limited year-round access
issues and put in place measures to mitigate risks associated with the sites. We also
commend the post for the detailed and thorough documentation it provided in response to
all 16 report recommendations.

Eight recommendations, numbers 2-5, 12, and 14-16 remain open. OIG will review and
consider closing recommendations 2-5 and12 when the documentation reflected in the
agency’s response to the preliminary report is received. For recommendations 14-16
additional documentation is requested. These recommendations remain open pending
confirmation from the chief compliance officer that the documentation reflected in OIG
Analysis below is received.

14: That the Director of Programming and Training develop and implement a
method to manage and provide oversight of regional coordinators’ workload
distribution.

       Concur: Recent hiring of a sixth Regional Coordinator has helped even out the
       ratio of PCVs to Regional Coordinators (RCs), who now manage between 27 and
       42 Volunteers per RC. Post finds this to be an acceptable variation, with RCs in
       coastal areas, where Volunteers are more accessible, having more PCVs to
       support. In regards to RCs being contacted for items at short notice by Lima staff
       of different units, the DPT has analyzed the position and communicated RC
       priorities to all staff and Volunteers. Staff has been instructed to communicate
       non-emergency requests one month in advance, copying the DPT, and taking into
       consideration the RC travel calendar that has been set up on MS Outlook and that
       will be maintained by the DPT and Executive Assistant. In addition, post has
       recently purchased Blackberrys to enable RCs to read and respond to e-mail more
       regularly during travel and to increase communication and efficiency. The DPT
       has also reminded Volunteers of RC’s multiple responsibilities so that they may
       have realistic expectations of timely support.


Preliminary Program Evaluation Report: Peace Corps/Peru                                  38
APPENDIX C



       Documents submitted:
           List of RCs and their PCV numbers
           DPT e-mail sent on March 14, 2012 to staff outlining the RCs priorities and
           instructions to communicate non-emergency request one month in advance
           DPT e-mail sent on March 14, 2012 to Volunteers outlining realistic
           expectations for support

       Status and timeline for completion: March 9, 2012 and ongoing

       OIG Analysis: We acknowledge the agency’s efforts to address this
       recommendation by hiring a 6th Regional Coordinator, providing Blackberries to
       RCs, clarifying the roles and responsibilities of RCs, and instructing staff to copy
       the DPT on non-emergency requests for RC assistance. However we were unable
       to determine from the documents submitted how the director of programming and
       training intends to actively manage and oversee the regional coordinators’
       workload distribution. Please provide documentation that describes the regular
       steps (e.g., weekly phone calls, standing senior staff agenda item) the DPT will
       take to ensure that RC workload is prioritized and manageable so that key RC
       tasks are accomplished on schedule.

15: That the Associate Peace Corps Directors (APCDs) ensure Peace Corps
Volunteer Coordinators are involved in at least one substantive Volunteer program
or activity with an assigned counterpart.

       Concur: At present, all PCVCs have at least one substantive direct service
       assignment with a counterpart and host country agency. For 2012 and the next
       selection of PCVCs, the DPT and APCDs have begun implementing changes to
       assure that these assignments are developed as part of the PCVC selection process
       and at least one month before PCVC assignments begin. This includes timely
       receipt of the Request for Volunteer letter from the host country agency and
       processing of the Concurrence memos with the IAP Region. Volunteers will
       report their community assignment activities using the Volunteer Reporting Form
       (VRF). Reporting will be monitored by their APCDs.

       Documents submitted:
           New PCVL/C position description and responsibilities
           DPT e-mail sent on February 23, 2012 to Volunteers and staff announcing
           new positions and containing the new PCVL/C position description and
           responsibilities

       Status and timeline for completion: February 23, 2012 and ongoing

       OIG Analysis: We acknowledge the agency’s efforts to address this
       recommendation by clarifying a new PCVL/PCVC position description. In order



Preliminary Program Evaluation Report: Peace Corps/Peru                                  39
APPENDIX C


       for us to close this recommendation please provide us with a sample of 50% of
       PCVCs’ Volunteer Report Forms for the next reporting period.

16: That the Director of Programming and Training (DPT) develop and implement
a method for staff to monitor Peace Corps’ Volunteer Coordinators’ volunteer work
to make sure there is an appropriate balance, consistent with agency policy, between
their staff and Volunteer responsibilities.

       Concur: At present, all PCVCs have a substantive assignment and are using the
       VRF for reporting purposes. Post has announced upcoming positions and shared
       the new position description, which identifies a 40% PCVC time commitment to
       their direct service community assignments. The DPT will work with APCDs to
       ensure that both Volunteers and staff understand the PCVC’s commitment to their
       host agencies and obtain an appropriate balance of workload. APCDs will
       schedule an average of two days weekly that PCVCs will work with their host
       agencies. APCDs will also use the VRF to monitor PCVC productivity,
       outcomes, and results in their community assignments. The DPT will also solicit
       feedback from PCVCs.

       Documents submitted:
           DPT e-mail sent on February 23, 2012 to Volunteers and staff announcing
           new positions and containing the new PCVL/C position description and
           responsibilities

       Status and timeline for completion: February 23, 2012 and ongoing

       OIG Analysis: We acknowledge the agency’s efforts to address this
       recommendation by clarifying a new PCVL/PCVC position description. In order
       for us to close this recommendation please provide us with a sample of 50% of
       PCVCs’ Volunteer Report Forms for the next reporting period.




Preliminary Program Evaluation Report: Peace Corps/Peru                                40
APPENDIX D


  OIG MEMO – ACCESSIBILITY OF VOLUNTEER SITES IN
                     PERU
To:            Sanjay Mathur, Country Director PC/Peru
               Carlos Torres, Regional Director, IAP
From:          Kathy A. Buller, Inspector General

Subject:       Accessibility of Peace Corps Volunteer Sites in Peru

Date:          December 8, 2011
The Office of Inspector General recently conducted an evaluation of Peace Corps/Peru
and we are in the process of developing our preliminary report. While Senior Evaluators
Heather Robinson and Jeremy Black report that the post is generally functioning well
with an effective management team and productive Volunteers, the purpose of this memo
is to focus attention on a Volunteer safety concern related to the post’s ability to safely
access throughout the year all the sites where Volunteers live and work.
During the course of the evaluation we learned that there are some Volunteer sites that
can only be accessed by dirt roads which, when wet, become slippery and dangerous, and
roads to some sites may be effectively impassable for long periods of time during the
rainy season. We were not able to find evidence that Peace Corps/Peru takes these
heightened seasonal road risks into consideration during its site development process. As
a result, Peace Corps/Peru may have placed some Volunteers in seasonably inaccessible
locations that would make their or staff’s travel to or departure from the site impossible
for periods of time. We are concerned that these conditions pose a safety or security risk
to those Volunteers.
Because our final evaluation report will not be issued for a few more months, we are
issuing this memo now in order to recommend that Peace Corps/Peru:
   1. Immediately assess the year-round accessibility of each Volunteer, paying
      particular attention to those sites that can only be accessed by driving through
      mountainous regions along narrow dirt roads with sharp turns and steep cliffs.
      Post should identify all sites where dirt roads become so muddy and slippery
      when wet (i.e. rainy season) that Volunteers are effectively inaccessible by car.

   2. Identify measures post can take to mitigate risks associated with travelling along
      the most treacherous roads to and from Volunteer sites. Steps post can take to
      access Volunteers in these areas, especially during the rainy season, should be
      identified.

These issues will be included in our written country program evaluation report along
with our formal recommendations to address these concerns. In the meantime, we
would appreciate an update from the post within 30 days on actions taken or planned to
address these issues.



Preliminary Program Evaluation Report: Peace Corps/Peru                                   41
APPENDIX D


cc:    Ed Hobson, Associate Director for Safety and Security
       Esther Benjamin, Associate Director, Global Operations




Preliminary Program Evaluation Report: Peace Corps/Peru         42
APPENDIX E


  AGENCY’S RESPONSE TO OIG MEMO – ACCESSIBILITY
            OF VOLUNTEER SITES IN PERU

To:         Kathy Buller, Inspector General

From:       Carlos Torres, Regional Director, IAP
            Sanjay Mathur, Country Director, Peru

CC:         Esther Benjamin, Associate Director, Global Operations
            Ed Hobson, Associate Director for Safety and Security
            Daljit Bains, Chief Compliance Officer

Date:       December 30, 2011

Subject:    Response to ―Accessibility of PCV Sites in Peru‖ memorandum dated
            December 8, 2011

The subject memorandum made two recommendations that required a response from
Peace Corps/Peru within thirty days. These were:

1. ―Immediately assess year-round accessibility of each PCV… paying particular
   attention to those sites that can only be accessed by driving through mountainous
   regions along narrow dirt roads with sharp turns and steep cliffs… post should identify
   all sites where dirt roads become so muddy and slippery when wet that PCVs are
   effectively inaccessible by car.‖

2. ―Identify measures post can take to mitigate risks associated with traveling along the
   most treacherous roads to and from PCV sites. Steps post can take to access
   Volunteers in these areas, especially during the rainy season, should be identified.‖

The memo also noted that these issues will be included in the final post evaluation report
along with OIG’s formal recommendations.

Response:

Post has taken immediate action towards addressing the two recommendations. Actions
already taken as well as those planned for short term implementation by post are as
follows:

1) Consultation with PCVs:
   a) Post has already started the process of consulting PCVs by initiating an
      anonymous electronic survey on various aspects of site development, including
      accessibility. This survey was initiated on December 9, 2011 and will conclude on
      January 12, 2012.



Preliminary Program Evaluation Report: Peace Corps/Peru                                     43
APPENDIX E


   b) By January 31, 2012, post staff will have spoken by telephone or in person with
      all 240+ Volunteers in the field regarding year-round accessibility to their sites
      with a special focus on emergency transportation for evacuation purposes. Site
      Locator Forms and Site Survey Forms will be updated appropriately. Given that
      the rainy season is currently underway, lasting approximately from December
      through April in the mountainous areas of Peru, staff will prioritize contacts with
      Volunteers in mountainous areas and take advantage of these telephone or in
      person consultations to provide initial advice on transportation issues should
      PCVs express any concerns in this area.

2) Staff assessment.
   a) Upon completion of conversations with PCVs, post staff will identify a ―short
       list‖ of high-risk sites.
   b) The identification of high-risk sites will also be informed by current staff
       knowledge, as well as inquiries regarding road accidents in areas of Volunteer
       placement, road maintenance and construction, and the accident history and driver
       practices of bus services utilized by PCVs in high-risk areas.

3) Communication to PCVs of additional precautions.
   a) Staff will then identify any additional measures that may be taken to ensure or
      improve accessibility of current PCV sites.
   b) Post will update its Transportation Policy by February 15, 2012 and disseminate
      it to all PCVs electronically. The new precautions will also be communicated at
      PCV regional meetings, beginning in February 2012, by Regional Coordinators
      and PCVLs.
   c) Post will draft a post Medical Evacuation Plan, in accordance with OMS
      guidelines, to be completed by February 28, 2012.

4) Evaluation of site changes (remedial actions).
   a) Based on the interviews with PCVs in high-risk sites and on the case-by-case
      assessment by the staff, any PCVs in sites that are not accessible year-round will
      be evaluated for a possible site change. PCVs who express serious safety concerns
      related to transportation and site accessibility will be given special consideration.

In addition to the above, by February 28, 2012, post intends to have completed an update
to its Site Selection Criteria Checklist, subject to Region’s approval and in accordance
with MS 270, Section 6.0, Site Development and Monitoring, specifically addressing the
OIG’s concerns regarding the accessibility of sites.

Based on this plan of action, post looks forwards to responding to issuance to the OIG’s
preliminary report.

In conclusion, Region and post recognize the factors that complicate accessibility to sites
in Peru. Acting prior to the OIG evaluation, post has already started the process of
improving, standardizing, and documenting its site development processes. The OIG
evaluation findings have helped sharpen the focus of this effort. At the same time, in



Preliminary Program Evaluation Report: Peace Corps/Peru                                  44
APPENDIX E


keeping with Peace Corps’ mission and development niche in general, Region and post
remain committed to serving the Andes, where poverty and human development
indicators are most compelling and where property crime and violent crime is also the
least prevalent. In conclusion, Region and post are committed to finding the right set of
conditions to assure safe and productive Volunteer service.




Preliminary Program Evaluation Report: Peace Corps/Peru                                     45
APPENDIX F


           PROGRAM EVALUATION COMPLETION AND
                     OIG CONTACT

PROGRAM                       This program evaluation was conducted under the
EVALUATION                    direction of Jim O’Keefe, Assistant Inspector General for
                              Evaluations, and by Senior Evaluator Jeremy Black and
COMPLETION
                              Senior Evaluator Heather Robinson. Additional
                              contributions were made by April Miller and Lisa
                              Chesnel.




                              Jim O’Keefe
                              Assistant Inspector General for Evaluations

OIG CONTACT
                              Following issuance of the final report, a stakeholder
                              satisfaction survey will be distributed. If you wish to
                              comment on the quality or usefulness of this report to help
                              us improve our products, please e-mail Jim O’Keefe,
                              Assistant Inspector General for Evaluations and
                              Inspections, at jokeefe@peacecorps.gov, or call (202)
                              692-2904.




Preliminary Program Evaluation Report: Peace Corps/Peru                               46
Help Promote the Integrity, Efficiency, and
     Effectiveness of the Peace Corps
Anyone knowing of wasteful practices, abuse, mismanagement,
fraud, or unlawful activity involving Peace Corps programs or
personnel should call or write the Office of Inspector General.
    Reports or complaints can also be made anonymously.




                       Contact OIG


                                Hotline:
       U.S./International:       202.692.2915
       Toll-Free (U.S. only):    800.233.5874

       Email:                    OIG@peacecorps.gov
       Web Form:

       Mail:                     Peace Corps Office of Inspector General
                                 P.O. Box 57129
                                 Washington, D.C. 20037-7129


                      Main Office: 202.692.2900
